Case: 19-1461

Document: 58

Page: 1

Date Filed: 07/30/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-1461

TED A. MCCRACKEN; GORETTI S. MCCRACKEN,
Appellants
v.'

R.J. REYNOLDS TOBACCO; DEBRA CREW, President/Chief Executive Officer, R.J.
Reynolds Tobacco Company, Successor; ITG BRANDS, LLC.; DAVID H. TAYLOR,
President/Chief Executive Officer, ITG Brands, LLC., Successor; REPUBLIC
TOBACCO, INC.; DONALD LEVIN, President/Chief Executive Officer, Republic
Tobacco Inc., Successor

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(E.D. Pa. Civil Action No. 2:17-cv-04495)
District Judge: Honorable Mark A. Kearney

Submitted Pursuant to Third Circuit LAR 34.1(a)
May 11, 2020
Before: AMBRO, GREENAWAY, JR. and PORTER, Circuit Judges
(Opinion filed July 30, 2020)

OPINION*

PER CURIAM
* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 19-1461

Document: 58

Page: 2

Date Filed: 07/30/2020

Pro se appellant Ted A. McCracken appeals the District Court’s dismissal of some
of his claims and the grant of summary judgment for defendants on his remaining
claims.1 For the reasons that follow, we will affirm the District Court’s judgment.
I.

McCracken began smoking cigarettes in 1966, when he was 13 years old. He
smoked a pack a day from then on until 2015, when he reduced his smoking to half a
pack a day. He mostly smoked Kool cigarettes and preferred tobacco products
manufactured by R.J. Reynolds Tobacco Company, ITG Brands, LLC, and Republic
Tobacco, L.P. McCracken also smoked cigarettes, cigars, pipe tobacco, and non-menthol
cigarettes manufactured by other companies over the years. McCracken was exposed to
asbestos at work for several years in the 1970s. In 2015, McCracken was diagnosed with
chronic obstructive pulmonary disease (“COPD”), emphysema, and chronic bronchitis.
Growing up, McCracken’s parents and brother advised him to stop smoking
because it was not good for him. His wife and his doctors have also advised him to stop
smoking for health reasons. McCracken testified at a deposition that he has seen
numerous health warnings on cigarette packs since he began smoking but never paid
much attention to them: He also stated that he can stop smoking and has stopped
i

In federal courts, parties may only proceed pro se or through counsel. See 28 U.S.C.
§ 1654. Pro se appellants are not permitted to represent any other litigant on appeal. See
Osei-Afrivie v. Med. Coll, of Pa.. 937 F.2d 876, 882-83 (3d Cir. 1991). Given that
appellant Goretti S. McCracken did not sign the brief submitted by Ted A. McCracken
and did not submit any other filings on her own behalf, this appeal is dismissed as to
appellant Goretti S. McCracken.
2

Case: 19-1461

Document: 58

Page: 3

Date Filed: 07/30/2020

smoking for periods of time in the past but that he was not motivated to try to stop until
he received his diagnoses in 2015.
In 2017, McCracken initiated an action in the District Court, alleging that he
became addicted to tobacco products due to the addition of ammoniated ingredients and
excessive nicotine in those products. He named Reynolds, ITG, and Republic as
defendants, as well as three officers of those companies, claiming that they designed
tobacco products to ensure that he would become addicted to them.
Defendants moved to dismiss the majority of McCracken’s claims. The District
Court dismissed all individual defendants for lack of personal jurisdiction and dismissed
most of McCracken’s remaining design defect and failure to warn claims, as well as a
variety of fraud, unfair trade practice, and consumer protection claims. McCracken
amended his complaint, adding a claim of intentional infliction of emotional distress, and
his remaining claims — 1) design defect claims that all remaining defendants added
excessive nicotine to their products to increase addiction; 2) design defect claims that
Republic failed to include product information data sheets, stop smoking markings, and
accurate ingredient lists in its tobacco products; 3) a failure to warn claim against
Republic since 1966; and 4) a failure to warn claim for the years 1966-1969 against ITG
— proceeded to discovery.
All remaining parties filed motions for summary judgment. In support of their
motion, defendants presented evidence from various experts, including a report from a
3

Case: 19-1461

Document: 58

Page: 4

Date Filed: 07/30/2020

doctor who opined that McCracken was not addicted to nicotine, after the doctor
conducted an examination and reviewed McCracken’s medical records and deposition
testimony.2 Another expert provided a report on the widespread availability of
information regarding the health risks of using tobacco products since the time
McCracken began smoking.
The District Court ultimately granted summary judgment for defendants and
denied summary judgment for McCracken. McCracken timely appealed.3
II.
We have jurisdiction over this appeal pursuant to 28 U.S.C. § 1291. We “review a
district court’s decision that it possesses or lacks personal jurisdiction de novo.”
Telcordia Tech Inc, v. Telkom SA Ltd.. 458 F.3d 172, 176 (3d Cir. 2006). We also
exercise plenary review over the District Court’s dismissal and summary judgment
decisions. See Fowler v. UPMC Shadvside. 578 F.3d 203, 206 (3d Cir. 2009); Blunt v.
Lower Merion Sch. Dist., 767 F.3d 247, 265 (3d Cir. 2014). Dismissal is appropriate
“only if, accepting all well-pleaded allegations in the complaint as true and viewing them
in the light most favorable to the plaintiff, a court finds that [the] plaintiffs claims lack
2 In his brief, McCracken challenges the opinion of this medical expert because he insists
that no physical examination was completed. However, the record reflects that this
expert completed a physical examination of McCracken after several court orders were
required to assure McCracken’s attendance.
3

The District Court’s rulings on McCracken’s subsequent post-judgment motions are not
within the scope of this appeal. McCracken’s appeal from one of those rulings is pending
at C.A. No. 20-1735 and will be resolved separately.
4

Case: 19-1461

Document: 58

Page: 5

Date Filed: 07/30/2020

facial plausibility.” Warren Gen. Hosp. v. Amgen Inc., 643 F.3d 77, 84 (3d Cir. 2011).
Summary judgment is appropriate “if the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R.
Civ. P. 56(a). A genuine dispute of material fact exists if the record evidence is sufficient
for a reasonable factfinder to return a verdict for the nonmoving party. Anderson v.
Liberty Lobby, Inc.. 477 U.S. 242, 248 (1986).
III.
First, the District Court properly dismissed many of McCracken’s claims early in
the litigation.4 The District Court correctly concluded that it lacked personal jurisdiction
over the three individual defendants named by McCracken, where he alleged no personal
contacts with Pennsylvania to establish either general or specific jurisdiction over them.
See Remick v. Manfredv. 238 F.3d 248, 255 (3d Cir. 2001). The District Court also
correctly concluded that McCracken failed to identify or rely on any legal basis for
recovery for allegations he presented that defendants unfairly targeted minors.
Next, McCracken could not bring state law claims against Reynolds or ITG for
failing to warn him about the dangers of using their tobacco products after 1969, as

4 McCracken does not address the dismissal of several of his claims in his appellate
brief. Accordingly, any challenge to the dismissal of those claims is deemed waived.
See United States v. Pelullo. 399 F.3d 197, 222 (3d Cir. 2005) (“[A]n appellant’s failure
to identify or argue an issue in his opening brief constitutes waiver of that issue on
appeal.”).
5

Case: 19-1461

Document: 58

Page: 6

Date Filed: 07/30/2020

preempted by the Public Health Cigarette Smoking Act of 1969.5 See Cipollone v.
Liggett Grp., Inc.. 505 U.S. 504, 520-21 (1992). McCracken’s fraudulent
misrepresentation claims were properly dismissed because he never identified an
allegedly false utterance of a representation made by any defendant. See Petruska v.
Gannon Univ.. 462 F.3d 294, 310 (3d Cir. 2006). McCracken also could not state a
fraudulent concealment claim because he has never identified a relationship between the
parties that gave rise to a duty to speak. See Duquesne Light Co. v. Westinghouse Elec.
Corp., 66 F.3d 604, 611 (3d Cir. 1995). McCracken could not allege a civil conspiracy
claim between defendants based on his vague allegations where he failed to state an
underlying intentional tort claim. See Fife v. Great Atl. & Pac. Tea Co., 52 A.2d 24, 39
(Pa. 1947). Further, the District Court correctly dismissed the majority of McCracken’s
design defect claims against Reynolds and ITG because “Pennsylvania courts have
refused to recognize causes of action for products which are legal and not defectively
manufactured, but inherently dangerous, except in those cases in which there has been a
failure to warn of the dangerous qualities thereof.” Hite v. R.J. Reynolds Tobacco Co..
578 A.2d 417, 420 (Pa. Super. Ct. 1990).
The District Court properly granted summary judgment for defendants, and

5 Because McCracken alleged that he began using Reynolds tobacco products after 1969,
all of his failure to warn claims against Reynolds are preempted.
6

Case: 19-1461

Document: 58

Page: 7

Date Filed: 07/30/2020

properly denied McCracken’s summary judgment motion, on his remaining claims.6 As
explained by the District Court, McCracken cannot establish the requisite causation for
his design defect claims, under either a strict liability or negligence theory. See Bamish
v. KWI Bldg. Co.. 980 A.2d 535, 541 (Pa. 2009); Phillips v. Cricket Lighters. 841 A.2d
1000, 1008 (Pa. 2003). Although his medical records indicate that his decades of heavy
smoking — paired with his years of asbestos exposure — are connected to his
emphysema, chronic bronchitis, and COPD diagnoses, McCracken has not presented
evidence that the design defects he has identified caused his injuries.7
McCracken also cannot establish the requisite causation for his failure to warn
claims. See Phillips v. A-Best Prods. Co.. 665 A.2d 1167, 1171 (Pa. 1995) (“For the
plaintiff in a failure-to-wam claim to establish . .. causation, the plaintiff must

6 The District Court appears to have inadvertently mislabeled which of McCracken’s
claims it was addressing at the beginning of its summary judgment opinion, as a later
decision clarifying this issue — which is not on review in this appeal — makes clear that
the Court intended to address all of McCracken’s remaining failure to warn and design
defect claims. Accordingly, we address all of McCracken’s claims that proceeded to
discovery here.
7 To the extent that McCracken mentions collateral estoppel in his appellate brief without
addressing the Court’s reasoning on that issue, we conclude that the District Court did not
abuse its discretion in refusing to apply nonmutual offensive collateral estoppel to
McCracken’s design defect claims against Reynolds and ITG. See Jean Alexander
Cosmetics. Inc, v. L’Oreal USA. Inc.. 458 F.3d 244, 249 (3d Cir. 2006) (“[Tjrial courts
. . . have broad discretion to determine when to apply non-mutual offensive collateral
estoppel.”). It properly determined that McCracken failed to meet one of the four
required factors, see id., and did not err in concluding that it “would be unfair,”
regardless, to apply nonmutual offensive collateral estoppel under the specific
circumstances of this case, see Parklane Hosiery Co. v. Shore. 439 U. S. 322, 330-31
(1979).
7

Case: 19-1461

Document: 58

Page: 8

Date Filed: 07/30/2020

demonstrate that the user of the product would have avoided the risk had he or she been
warned of it by the seller.”). McCracken testified at a deposition that he saw various
health warning labels on cigarette containers throughout his decades of smoking, but he
did not pay much attention to them. He also testified that his parents and brother told him
to stop smoking once he had started, out of concern for his health, but he did not heed
their warnings. McCracken’s doctors advised him to quit smoking, but he continued to
smoke. Defendants also presented expert testimony about the various ways that the
public was aware of the dangers of smoking by 1966. There is no record evidence to
support a reasonable inference that the existence of additional warnings would have
deterred McCracken from smoking. Pavlik v. Lane Ltd./Tobacco Exps. Int’h 135 F.3d
876, 881 (3d Cir. 1998) (“To reach a jury on a failure to warn theory of liability, the
evidence must be such as to support a reasonable inference, rather than a guess, that the
existence of an adequate warning might have prevented the injury.”).
Finally, defendants were entitled to summary judgment on McCracken’s claim of
intentional infliction of emotional distress because the record contained no evidence, let
alone “competent medical evidence,” to support McCracken’s unsubstantiated allegations
of emotional distress.8 Kazatskv v. King David Mem’l Park. Inc.. 527 A.2d 988, 995 (Pa.

8

We also conclude that the District Court did not abuse its discretion in the two
discovery-related decisions challenged by McCracken on appeal. See Mass. Sch. of Law
at Andover. Inc, v. Am. Bar Ass’n. 107 F.3d 1026, 1032 (3d Cir. 1997). Similarly, we
can discern no error or bias from its decisions denying three requests for extensions of
time to file responses, from some of the lengths of time provided when extensions were
8

Case: 19-1461

Document: 58

Page: 9

Date Filed: 07/30/2020

1987) (“[Ejxistence of the alleged emotional distress must be supported by competent
medical evidence.”).
Accordingly, we will affirm the judgment of the District Court.

granted, or from the early denial of McCracken’s request to file documents electronically,
which was later granted. See In re Fine Paper Antitrust Litig.. 685 F.2d 810, 817 (3d Cir.
1982) (“We will not interfere with a trial court’s control of its docket except upon the
clearest showing that the procedures have resulted in actual and substantial prejudice to
the complaining litigant.”) (internal quotation marks and citation omitted).
9

Case: 19-1461

Document: 63

Page: 1

Date Filed: 09/03/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-1461

TED A. MCCRACKEN; GORETTI S. MCCRACKEN,
Appellants
v.

R.J. REYNOLDS TOBACCO, DEBRA CREW, President/Chief Executive Officer, R.J.
Reynolds Tobacco Company, Successor; ITG BRANDS LLC, DAVID H. TAYLOR,
President/Chief Executive Officer, ITG Brands, LLC, Successor; REPUBLIC
TOBACCO, INC., DONALD LEVIN, President/Chief Executive Officer, Republic
Tobacco Inc., Successor

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civ. Action No. 2-17-cv-04495)
District Judge: Honorable Mark A. Kearney

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR, SHWARTZ, KRAUSE, RESTREPO, BIB AS,
PORTER, MATEY, and PHIPPS, Circuit Judges.
The petition for rehearing filed by Appellant Ted Aaron McCracken in the aboveentitled case having been submitted to the judges who participated in the decision of this
Court and to all the other available circuit judges of the circuit in regular active service,
and no judge who concurred in the decision having asked for rehearing, and a majority of

Case: 19-1461

Document: 63

Page: 2

Date Filed: 09/03/2020

the judges of the circuit in regular service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc is denied.
BY THE COURT,
s/Joseph A, Greenaway. Jr.
Circuit Judge
Dated: September 3, 2020
cc:

Ted Aaron McCracken
Howard M. Klein, Esq.
Robert S. Pierce, Esq.
Ryan H. Niland, Esq.

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
TED A. MCCRACKEN, et al
v.

: CIVIL ACTION
NO. 17-4495

R.J. REYNOLDS TOBACCO
COMPANY, etal.

MEMORANDUM
KEARNEY, J.

March 20, 2019

After careful review of extensive discovery with a marked lack of evidence of tobacco use
causing Ted A. McCracken’s individual injuries necessary to establish negligence and strict
liability against tobacco manufacturers, we granted summary judgment to the manufacturers. Mr.
McCracken now pro se seeks reargument after he appealed our summary judgment Order. After
confirming our continuing jurisdiction, we carefully reviewed our factual analysis and agree with
Mr. McCracken as to two descriptive errors in our February 14,2019 Memorandum in support of
our February 14, 2019 Order granting the manufacturers’ motion for summary judgment. We
erred in omitting references to the correct manufacturer and one theory of liability. But after study,
those errors do not affect our findings Mr. McCracken and his wife adduced no more than a mere
scintilla of evidence his claim design defect or failure to warn caused his alleged injuries. Mr.
McCracken cannot simply claim tobacco caused his injury without more than a scintilla of
evidence of causation. Speculation based on public reports is not evidence.

We grant Mr.

McCracken’s motion for reargument but affirm our earlier Order granting summary judgment to
the manufacturers.

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 2 of 13

I. Background
Ted A. McCracken pro se sued cigarette manufacturers RJ. Reynolds Tobacco Co. (RJR),
ITG Brands, and Republic Tobacco, alleging his smoking their cigarettes for over fifty years
caused him COPD and emphysema under both negligence and strict liability theories. The
manufacturers filed separate motions to dismiss, on which we issued two rulings on May 21,2018,
and June 26, 2018.1 We allowed four claims to proceed: (1) a failure-to-wam claim against ITG
Brands from Mr. McCracken’s first cigarette in 1966 until 1969;2 (2) a failure-to-wam claim
against Republic for failing to warn about the risks of its loose-leaf cigarette tobacco;3 (3) a design
defect claim against ITG and RJR for “altering the amount of nicotine to encourage continued
addiction”;4 and, (4) design defect claims against Republic alleging it “[a] altered the amount of
nicotine to encourage continued addiction; [b] failed to contain product information data sheets;
[c] failed to list accurately and legibly the ingredients contained within loose leaf tobacco and the
smoke including known carcinogens; and, [d] a lack of stop smoking markings.”5 We permitted
Mr. McCracken to add claims for intentional/negligent infliction of emotional distress and loss of
consortium.6
Following vigorous, often perplexing discovery with a pro se plaintiff, both parties moved
for summary judgment.7 Mr. McCracken argued we should collaterally estop the manufacturers
from defending themselves and the manufacturers’ answers to interrogatories established their
liability as a matter of law.8 We carefully studied his claims and looked for evidence of causation
of his injuries based on his liability theories. On February 14,2019, we granted summary judgment
to the manufacturers, denying Mr. McCracken’s assertion of collateral estoppel and barring his
claims due to a lack of competent causation evidence.9 Mr. and Mrs. McCracken appealed our
Order.10

2

Case 2:l7-cv-04495-MAK Document 198 Filed 03/20/19 Page 3 of 13

II. Analysis
Mr. McCracken now moves for “reargument” under Federal Rule of Civil Procedure 59(e),
arguing we erred in our analysis.11 After careful review of our February 14, 2019 Memorandum,
we agree as to two errors in describing Mr. McCracken’s claims. But these two descriptive errors
do not change our February 14,2019 Order granting summary judgment to the manufacturers.
As we noted, Dr. Brown diagnosed “Emphysema: secondary to smoking” and “Tobacco
use disorder.” 12 And Mr. McCracken presents some documentary evidence about the dangers of
ammonia.13 But Mr. McCracken presents no evidence, expert or otherwise, any of the alleged
negligence or defects—ammonia addition, failure to contain product information data sheets,
failure to list the ingredients contained within loose leaf tobacco, and a lack of stop smoking
markings—caused his harms. At bottom, Mr. McCracken asks us to allow a jury to find design
defect or negligence caused his harms based on the general knowledge smoking can cause harms
and the diagnosis of his physician, who is not an expert witness, smoking generally caused his
harms.14 He has not adduced sufficient evidence to proceed to a jury.
A. We grant in part Mr. McCracken’s motion for reconsideration but still grant
summary judgment to the manufacturers.15
The scope of a motion for reconsideration under Rule 59(e) “is extremely limited.”16
Motions for reconsideration are not a vehicle for a “second bite at the apple”17 or to “ask the Court
to rethink what [it] had already thought through—rightly or wrongly.”18 The party seeking
reconsideration must show at least one of the following grounds: “(1) an intervening change in the
controlling law; (2) the availability of new evidence that was not available when the court granted
the motion for summary judgment; or (3) the need to correct a clear error of law or fact or to
prevent manifest injustice.”19 As Mr. McCracken makes no arguments regarding an intervening

3

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 4 of 13

change in controlling law or new evidence previously unavailable is now within his possession,
we will evaluate his challenges under the third prong.
When a District Court “addresses the merits—rather than the mere procedural propriety”—
of a motion for reconsideration, the motion is considered granted.20 Still, the “very fact of the
court’s review does not prevent the court performing such reconsideration analysis (of the original
application, as supplanted by the points raised in the motion for reconsideration) from reaching a
disposition identical—either in its rationale or in its outcome, or in both regards—to the court’s
decision previously reached upon examination of the original application.”21 We grant Mr.
McCracken’s motion for reconsideration, finding we erred in two ways. First, we incorrectly
described Mr. McCracken’s failure-to-wam claim from 1966 to 1969 against Republic when the
claim is against ITG Brands. Second, we incorrectly analyzed Mr. McCracken’s design defect
claims against Republic as failure-to-wam claims. After reconsideration, the manufacturers are
still entitled to summary judgment. Our first error is harmless because we still analyzed whether
additional warnings would have stopped Mr. McCracken from smoking. Our second error does
not affect the outcome because Mr. McCracken failed to present competent evidence of causation.
1. Mr. McCracken's failure-to-wam claim against Republic.
Mr. McCracken correctly identifies we erred in our description of his failure-to-wam claim.
We wrote: “Mr. McCracken seeks summary judgment on his failure to warn claim against
Republic for the years 1966 through 1969 based on its responses to interrogatories, »22 Upon
further review, Mr. McCracken’s failure to warn from 1966-69 claim is against ITG Brands, not
Republic, as we explained in our May 21,2018 Memorandum.23 His failure-to-wam claim against
Republic is based on its failure to warn about the dangers of its loose-leaf tobacco.24

4

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 5 of 13

We addressed Mr. McCracken’s awareness of the risks of smoking throughout his life in
our February 14,2019 Memorandum and found additional warnings would not have deterred Mr.
McCracken from using tobacco.25 We described Mr. McCracken’s testimony he heard repeated
warnings throughout his life about the dangers of cigarettes.26 We also found Mr. McCracken saw
warnings on cigarette packages.27 We discussed our Court of Appeals’ holding in Jeter v. Brown
& Williamson Tobacco Corp. ,28 both in our February 14,2019 Memorandum and in our June 26,
2018 Memorandum allowing Mr. McCracken’s failure-to-wam claim to proceed.29 We found
additional warnings would not have changed Mr. McCracken’s behavior. Our findings apply to
cigarettes manufactured by both ITG and Republic.
Mr. McCracken argues we overstated his awareness of the dangers of smoking. He argues
“[fjamily member [sic] may have said to stop smoking, but that came after an incident where
plaintiff had burned a hole in the wall-to-wall carpet, or in his suit pants, or it was simply a [sic]
inconvenience to go out and buy cigarettes after midnight, not because smoking was particularly
hazardous to plaintiffs health.”30 He also argues we overstated when he saw Surgeon General’s
warnings appear on cigarette packs.31
But Mr. McCracken’s sworn deposition testimony directly refutes his new arguments. He
testified his mother, father, and brother told him smoking was not good for him when he began
smoking.32 He also testified he “recall[ed]” cigarettes containing warnings in 1966 and he knew
about the warnings when he started smoking but “didn’t pay much attention to it.”33 We cannot
allow Mr. McCracken to alter his sworn deposition testimony through this motion for
reconsideration.34

Additional evidence described in our February 14, 2019 Memorandum

buttresses our holding, such as Mr. McCracken’s wife telling him to quit because smoking is bad
for your health35 and the manufacturers’ expert testimony disseminating the widespread

5

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 6 of 13

knowledge of smoking’s harms.36 Despite all of this, Mr. McCracken smoked throughout his life,
even after his COPD diagnosis.37 He has not presented more than a scintilla of evidence more
warnings would have changed his behavior.
2. Mr. McCracken’s design defect claims against Republic.
In our June 26, 2018 Memorandum on the motions to dismiss, we permitted Mr.
McCracken’s design defect claims against Republic to proceed.38 But in our February 14, 2019
Memorandum, we analyzed those claims as if they were failure-to-wam claims39 and we did not
address Republic’s cigarettes in our design defect analysis.40 Although Mr. McCracken does not
raise this error in his motion for reconsideration, we discovered our error while reviewing Mr.
McCracken’s argument we ignored his failure-to-wam claim against Republic. We now clarify
our analysis.
Our design defect analysis regarding RJR’s King Kool cigarettes applies all the same to
Republic’s tobacco products.

Just as Mr. McCracken failed to present causation evidence

regarding how ammoniated tobacco caused his harms, he has failed to show how any of the alleged
defects in Republic’s roll-your-own cigarettes caused his harms.

Republic’s interrogatory

responses do not constitute evidence its alleged tobacco manipulation, data sheets, product
ingredients, or stop smoking warnings caused his harms. In arguing he did present causation
evidence, Mr. McCracken misunderstands our holding: Smoking generally may have caused Mr.
McCracken’s harms, but as we found in our February 14,2019 Memorandum, Mr. McCracken has
presented no competent evidence any of the alleged defects in the cigarettes caused Mr.
McCracken’s harms.41

6

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 7 of 13

B. We deny the remainder of Mr. McCracken’s Motion.
Mr. McCracken makes several other arguments of error in our February 14, 2019
Memorandum. After study, we deny each argument.
1. Collateral estoppel does not apply.
Mr. McCracken renews his argument we should have applied collateral estoppel based on
Judge Kessler’s opinion in the DOJ Case.42 Mr. McCracken now attaches specific findings of
Judge Kessler and argues we should apply them here. We will not consider these specific findings
of fact, as Mr. McCracken cannot receive a “second bite at the apple.”43 But even were we to
consider them, Mr. McCracken still fails to address the other reasons why we denied collateral
estoppel—its undesirable incentives, the existence of favorable judgments in other cases, and this
case’s distinguishable posture from the DOJ Case.
2. Mr. McCracken’s asbestos exposure.
Mr. McCracken argues we incorrectly found Dr. Dovnarsky wrote Mr. McCracken had
“heavy, direct exposure to asbestos on a regular basis in the 1970’s when he worked with
cement. »44 Mr. McCracken is inconrect. We accurately quoted Dr. Dovnarsky’s finding.45
Mr. McCracken also argues we ignored Dr. Dovnarsky’s findings he “reviewed a chest xray ... that shows hyperinflation consistent with emphysema but no other abnormalities,”46 and
he “did not see anything that looks like pleural asbestosis on his chest x-ray.”47 While true we did
not mention these findings, we assigned little, if any, weight to Mr. McCracken’s exposure to
asbestos in our opinion. We mentioned asbestos only in our Introduction and Background
sections.48 We did not opine asbestos caused or even contributed to Mr. McCracken’s health
problems. Instead, we granted summary judgment to the manufacturers on the design defect claim
because Mr. McCracken presented no evidence a design defect caused his harms. 49

7

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 8 of 13

3. We correctly evaluated expert testimony.
Mr. McCracken challenges two issues in our review of the expert’s opinions. He argues
the statement of the manufacturers’ expert, Dr. Gamer, is unsworn and un-notarized, so it is
inadmissible. Mr. McCracken is incorrect. The manufacturers attached a notarized affidavit Dr.
Gamer signed and swore.50
Mr. McCracken argues we should have credited Dr. Brown’s medical records over Dr.
Agharkar’s expert opinion. But as we noted in our February 14, 2019 Memorandum, Dr. Brown
did not opine on how any design defect caused Mr. McCracken’s harms.51 Even if we disregarded
Dr. Agharkar’s opinion, Mr. McCracken’s argument fails because he has still failed to present
causation evidence.
4. We do not consider inadmissible documentary evidence.
Construing Mr, McCracken’s motion liberally, he argues we erred in discounting his
documentary evidence. But he does not presently rebut our finding the documentary evidence
constituted inadmissible hearsay.52 As in his summary judgment briefing, he makes no argument
about the documents’ admissibility. We cannot identify a basis of admissibility for the records.
5. There is no evidence supporting an emotional distress claim.
Mr. McCracken rehashes his argument regarding intentional infliction of emotional
distress. As before, he claims the manufacturers’ addition of ammonia is outrageous conduct
which caused him emotional distress. We already addressed these arguments.53 Mr. McCracken
has not attached medical evidence proving emotional distress. Nor has he shown outrageous
conduct.54 We properly dismissed this claim.

8

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 9 of 13

111. Conclusion
Mr. McCracken correctly identifies we miscast his failure-to-wam claims in our February
14, 2019 Memorandum. We also find we should have analyzed certain claims against Republic
as design defect claims. We grant reargument. But upon reconsideration, we continue to hold the
manufacturers are entitled to summary judgment. Using tobacco for over fifty years after several
notices of harm, he fails to adduce more than a scintilla of evidence the design defect or a failure
to warn caused his present illness.

i

ECF Doc. No. 52; ECF Doc. No. 79.

2 ECF Doc. No. 52 at 1,8, 13.
3 ECF Doc. No. 79 at 4-5.
4 ECF Doc. No. 52 at 10, 13.
5 ECF Doc. No. 79 at 9.
6 ECF Doc. Nos. 89-90.
7 ECF Doc. Nos. 156-59.
8

ECF Doc. No. 159.

9 ECF Doc. No. 184.
10 ECF Doc. No. 188.
11 ECF Doc. No. 190. Mr. McCracken styles his pro se motion as a “Motion For Reargument Of
Court’s Order Granting Defendant’s Motion For Summary Judgment.” We will construe Mr.
McCracken’s motion as a Motion for Reconsideration under Rule 59(e). Despite Mr. McCracken’s
Notice of Appeal, we have jurisdiction to decide his Rule 59(e) motion. “[A] timely motion filed
under Fed. R. Civ. P. 59(e) precludes a court of appeals from exercising jurisdiction while the
motion is pending.” United States v. Adderly, No. 06-548,2012 WL 12906317, at *1 n.l (E.D. Pa.
Jan. 25, 2012). This is true even when, as here, the Rule 59 motion is filed after the notice of
9

Case 2:17-cv-04495-MAK Document 198 Filed 03/20/19 Page 10 of 13

appeal. See United States v. Rogers Transp., Inc., 751 F.2d 635, 635 (3d Cir. 1985). As a result,
the dispositive jurisdictional question is whether Mr. McCracken’s motion for reconsideration is
timely. It is timely under both the local and federal rules. Our local rules require motions “for
reconsideration or reargument ... be served and filed within fourteen (14) days.” Local Rule
7.1 (g). We entered Judgment on February 14,2019. Mr. McCracken filed his motion on February
28,2019.
12 ECFDoc.No. 184 at 2.
13 ECF Doc. No. 180 at MSJ App 1165-69.
14 See Heller v. Shaw Indus., Inc., 167 F.3d 146, 165 (3d Cir. 1999) (noting without excluded
expert testimony, plaintiff failed to offer admissible proof defendant’s product was defective);
Lamar v. Saks Fifth Ave., Inc., No. 2:12-836, 2012 WL 12897909, at *3 (E.D. Pa. Oct. 23, 2012)
(granting summary judgment where plaintiff failed to “come forward with sufficient expert
testimony” proving defendant caused her harm); Damiani v. Momme, No. 11-2534, 2012 WL
1657920, at *4 (E.D. Pa. May 11,2012) (precluding treating physicians who were not designated
as experts from testifying with independent opinions as to the cause of Plaintiff’s injuries); Mracek
v. Bryn Mawr Hosp., 610 F. Supp. 2d 401,407 (E.D. Pa. 2009) (granting summary judgment where
medical records contained no evidence a defect caused plaintiff’s harms), affd, 363 F. App’x 925
(3d Cir. 2010). Any finding of liability would result from the jury’s mere speculation as to
causation.
15 The standard of review for a Rule 59 motion “relates back to the standard applicable in the
underlying decision.” Phelps v. Obama, No. 1:15-2328, 2016 WL 320648, at *2 (M.D. Pa. Jan.
27, 2016) (citing United States v. Fiorelli, 337 F.3d 282, 288 (3d Cir. 2003)). We will reapply the
standard we use to decide Rule 56 motions in considering Mr. McCracken’s motion for
reconsideration. Summary judgment is proper when “the movant shows that there is no genuine
issue as to any material fact and that the moving party is entitled to a judgment as a matter of law.”
Fed. R. Civ. P. 56(a). “Material facts are those that could affect the outcome of the proceeding,
and a dispute about a material fact is genuine if the evidence is sufficient to permit a reasonable
jury to return a verdict for the non-moving party.” Pearson v. Prison Health Serv., 850 F.3d 526,
534 (3d Cir. 2017) (internal quotations omitted). On a motion for summary judgment, “we view
the facts and draw all reasonable inferences in the light most favorable to the nonmovant.” Id. at
533-34 (citing Scott v. Harris, 550 U.S. 372,378 (2007)). “The party seeking summary judgment
‘has the burden of demonstrating that the evidentiary record presents no genuine issue of material
fact.’” Parked v. Danberg, 833 F.3d 313, 323 (3d Cir. 2016) (quoting Willis v. UPMC Children's
Hosp. of Pittsburgh, 808 F.3d 638, 643 (3d Cir. 2015)). If the movant carries its burden, “the
nonmoving party must identify facts in the record that would enable them to make a sufficient
showing on essential elements of their case for which they have the burden of proof.” Willis, 808
F.3d at 643 (citing Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986)). “The mere existence of
a scintilla of evidence in support of the plaintiff’s position will be insufficient; there must be
evidence on which the jury could reasonably find for the plaintiff.” Anderson v. Liberty Lobby,
Inc., All U.S. 242,252 (1986). “If, after adequate time for discovery, the nonmoving party has not
met its burden, pursuant to Federal Rule of Civil Procedure 56, the court must enter summary
judgment against the nonmoving party.” Id. at 643 (citing Celotex, All U.S. at 322-23). Because
Mr. McCracken is proceeding pro se, we will read his “papers liberally and interpret!] them to

10

Case 2:l7-cv-04495-MAK Document 198 Filed 03/20/19 Page 11 of 13

raise the strongest arguments suggested therein.” Hodson v. Alpine Manor, Inc., 512 F. Supp. 2d
373, 384-85 (W.D. Pa. 2007). “Despite this liberal interpretation, however, a bald assertion,
unsupported by evidence, cannot overcome a properly supported motion for summary judgment.”
Id.
16 Blystone v. Horn, 664 F.3d 397,415 (3d Cir. 2011).
17 Bhatnagar v. Surrendra Overseas Ltd, 52 F.3d 1220,1231 (3d Cir. 1995).
18 Glendon Energy Co. v. Borough ofGlendon, 836 F. Supp. 1109,1122 (E.D. Pa. 1993) (alteration
in original).
19 Max’s Seafood Cafe ex ret Lou-Ann, Inc. v. Quinteros, 176 F.3d 669,677 (3d Cir. 1999).
20 In re Telfair, 745 F. Supp. 2d 536, 538 n.l (D.N.J. 2010), vacated in part on other grounds sub
nom. Telfair v. Office of US. Attorney, 443 F. App’x 674 (3d Cir. 2011).
21 Id. (citing Pena-Ruiz v. Solorzano, 281 Fed. App’x 110, 111 n. 1 (3d Cir. 2008)).
22 ECF Doc. No. 184 at 14 (emphasis added).
23 ECF Doc. No. 52 at 8-9.
24 ECF Doc. No. 79 at 4-5.
25 ECF Doc. No. 184 at 14-15.
26 ECF Doc. No. 184 at 14-15.
27 ECF Doc. No. 184 at 14-15.
28113 Fed. App’x 465 (3d Cir. 2004).
29 ECF Doc. No. 184 at 15; ECF Doc. No. 79 at 5.
30 ECF Doc. No. 190 at U 12.
31 ECF Doc. No. 190 at ff 13,19.
32 ECF Doc. No. 158 at MSJ App 128-30.
33 ECF Doc. No. 158 at 218.
34 See Jiminez v. All Am. Rathskeller, Inc., 503 F.3d 247, 253 (3d Cir. 2007) (“[I]f it is clear that
an affidavit is offered solely for the purpose of defeating summary judgment, it is proper for the
11

